<html>
<title> - ADMINISTRATION REORGANIZATION AND MODERNIZATION PROPOSALS RELATED TO THE DEPARTMENT OF ENERGY AND THE DEPARTMENT OF THE INTERIOR</title>
<body><pre>[Senate Hearing 115-524]
[From the U.S. Government Publishing Office]


                                                    S. Hrg. 115-524

                   ADMINISTRATION REORGANIZATION AND
                   MODERNIZATION PROPOSALS RELATED TO
                      THE DEPARTMENT OF ENERGY AND
                     THE DEPARTMENT OF THE INTERIOR

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 19, 2018

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
        
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-984                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------        
        
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
LAMAR ALEXANDER, Tennessee           MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
BILL CASSIDY, Louisiana              TAMMY DUCKWORTH, Illinois
ROB PORTMAN, Ohio                    CATHERINE CORTEZ MASTO, Nevada
SHELLEY MOORE CAPITO, West Virginia  TINA SMITH, Minnesota

                      Brian Hughes, Staff Director
                Patrick J. McCormick III, Chief Counsel
                Michelle Lane, Professional Staff Member
               Benjamin Reinke, Professional Staff Member
               Chester Carson, Professional Staff Member
             Mary Louise Wagner, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
               John Richards, Democratic General Counsel
                           
                           
                           C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     3

                               WITNESSES

McNamee II, Bernard L., Executive Director, Office of Policy, 
  U.S. Department of Energy......................................     4
Combs, Susan, Senior Advisor to the Secretary, U.S. Department of 
  the Interior...................................................    10

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Cantwell, Hon. Maria:
    Opening Statement............................................     3
Combs, Susan:
    Opening Statement............................................    10
    Written Testimony............................................    12
    Map entitled ``12 Unified Regions Based on Watersheds''......    35
    Map entitled ``DOI Bureaus--Current Region Boundaries''......    36
    Responses to Questions for the Record........................   192
Defenders of Wildlife:
    Letter for the Record........................................   209
Heinrich, Hon. Martin:
    List of Trade Associations and Business Groups...............    27
McNamee II, Bernard L.:
    Opening Statement............................................     4
    Written Testimony............................................     7
    Responses to Questions for the Record........................    41
Murkowski, Hon. Lisa:
    Opening Statement............................................     1

 
                   ADMINISTRATION REORGANIZATION AND
                   MODERNIZATION PROPOSALS RELATED TO
                      THE DEPARTMENT OF ENERGY AND
                     THE DEPARTMENT OF THE INTERIOR

                              ----------                              


                        THURSDAY, JULY 19, 2018

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning, everyone. The Committee will 
come to order.
    We are here today to examine the Administration's efforts 
to reorganize and modernize the Department of Energy (DOE) and 
the Department of the Interior (DOI).
    As a point of reference, in March 2017, President Trump 
issued an Executive Order directing all agencies across the 
Federal Government to examine their structures and find ways to 
be less wasteful, reduce inefficiency, and improve 
accountability. Since then, both Departments under our 
Committee's jurisdiction have taken steps to help meet that 
directive.
    Mr. McNamee, thank you for joining us on behalf of the 
Department of Energy. I appreciate your Department's efforts to 
remove institutional barriers that would hamper our efforts to 
achieve a cleaner, cheaper, more diverse, and more secure 
energy future.
    I think it is smart to crosscut agency work as we seek to 
address these issues--whether it is microgrids, or mineral 
security, exascale computing, quantum, advanced nuclear, energy 
storage, and the other challenges that we face. I think it also 
makes sense to create public-private partnerships that leverage 
our national labs, our universities, and our industries.
    I look forward to hearing how this important work can be 
better facilitated by the structural changes that DOE has made 
to realign certain offices beneath the Under Secretaries. I 
also look forward to learning a little bit more about the 
integration of DOE's new Office of Cybersecurity, Energy 
Security, and Emergency Response (CESER). We have had several 
who have come before this Committee to talk about this newly 
established CESER, including the Secretary himself, so hearing 
your comments this morning will be appreciated.
    Sharing best practices and breaking down silos at DOE just 
seems logical. While I have concerns about several aspects of 
OMB's recent blueprint to reorganize the Federal Government, I 
do appreciate the Secretary's support of highly effective 
programs such as ARPA-E. I am a big supporter of that. I wish 
that the Secretary's support was reflected in the President's 
budget request. As you know, we are going to continue 
supporting it through not only this Committee here but through 
Appropriations.
    Turning to the Department of the Interior. Ms. Combs, thank 
you for being here today. I appreciate the conversation we had 
just a little over a week ago. In my view, as I mentioned, you 
should have been confirmed as Assistant Secretary some months 
ago, but you are waiting and waiting and waiting.
    While you have been waiting I know you have been working 
with the Secretary to develop, as he puts it, a Department that 
will work for the American people for the next 100 years.
    I often say in this Committee and out in public that the 
Department of the Interior is effectively Alaska's landlord. 
With the control that the Federal Government, specifically 
Interior, has over 223 million acres of land in our state, it 
has a significant impact on our state's economy.
    So if the Department is reorganizing in a manner that 
allows it to improve mission delivery and focus finances, or 
focus resources in the field, I think that Alaskans can get 
behind that and ultimately benefit from it.
    I do support Interior's goal of aligning geographic areas 
to enhance coordination of resource and policy decisions as 
well as the establishment of common regions that will better 
streamline operations to better serve Americans.
    I welcome the idea of sending more employees from 
headquarters to the field, closer to the people and to the 
places that their decisions affect. I also believe there are a 
number of agencies within other Departments that would perhaps 
be a better fit at Interior.
    This morning we look forward to both of you walking us 
through the proposed changes happening at DOE and DOI, which I 
think will help us understand the thinking behind them and how 
they are going to work in practice. It is one thing to have 
them down on paper, looks like a good idea, but how does the 
implementation work?
    I know this entails a lot of work, obviously a great deal 
more to come. Senators have clearly legitimate questions that 
will relate to this and how these efforts will unfold. I 
certainly do. But certainly, we cannot deny that it is a worthy 
endeavor to look at the structures of our departments to 
determine how operationally they are working.
    I think that is our responsibility, again, looking at the 
structures of government to determine whether they are as 
efficient and effective as we expect. Putting ideas on the 
table for improvements is a good thing and something that we 
should encourage. And from there on, it is on all of us to 
consider those ideas, consider them thoughtfully, help refine 
them if they are good ideas and then move forward on those that 
best serve the American people.
    So I look forward to the discussion this morning, and I 
welcome both of you.
    With that, I turn to Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Chairman Murkowski.
    Certainly efficiencies in government should be strived for, 
but I find many of the proposals that are on the table in this 
hearing today very troubling. Both the Energy and Interior 
Departments seem intent on fixing problems that don't exist 
instead of solving the ones that do. Some of what the President 
and his Administration have proposed is downright dangerous.
    At the top of the list is the idea to sell off transmission 
from the Bonneville Power Administration (BPA) and its sister 
agency, the Tennessee Valley Authority. These regional entities 
serve consumers in 33 states, including rural Americans who 
would otherwise be left behind and have built with cost-based 
power tremendous economies that we do not want to disrupt.
    For those of us in the Pacific Northwest--and I know my 
other colleagues from the Northwest who are not here today will 
chime in when they do come and I am sure my colleague from 
Tennessee will chime in as well--these are important issues 
that right next to the dictionary should be with OMB. This is a 
non-starter. We have stopped every Administration from doing 
this, but never have we had somebody come and propose by the 
agencies, acting as if they agree with OMB.
    Selling off BPA wires and abandoning cost-based rates would 
raise electricity rates and throttle the Northwest economy. The 
Northwest Power and Conservation Council compared this proposal 
to Enron's market manipulation of the market and that crisis in 
2000 cost the Northwest $10 billion when retail prices rose 36 
percent. The Council estimates the President's current proposal 
could have a similar effect, raising electricity rates between 
20 and 40 percent on hardworking families. I will be working 
with my colleagues to stop this horrible idea in its tracks.
    I am concerned that the proposed reorganization does not 
meaningfully address the threat of cyberattacks. Make no 
mistake, the grid and other systems are under constant 
cyberattack. I have worked with the Chair on our legislation 
and again, we passed two years ago, to try to give DOE more 
authority to help in this effort.
    I understand that DOE is standing up a new office, but it 
has to be more than slapping a name on a door, called CESER. It 
has to be about making sure there are adequate funds and a real 
threat assessment. DOE's own budget justification already tells 
a different story. The marginal 13 percent increase in funding 
for cybersecurity comes at expense of a dramatic 64 percent cut 
to Transmission Reliability and Resilience, and an even deeper 
80 percent cut to the Resilient Distribution Systems. The grid 
will be security job number one as it relates to cybersecurity. 
This issue is not going away. We all need to wake up.
    We live in an information age and that information age 
means that more products, more services, and more threats are 
going to be attached to the grid. So you cannot say you are for 
cybersecurity while you cut the programs that are about 
resiliency.
    We need to double cybersecurity funding not play on the 
margins, and we need to make sure that we are doing everything 
we can to make sure that foreign governments, including the 
Russians, are not hacking our grid capability. How can we 
protect and defend our nation when we haven't made the right 
investments or even understand the threat assessment that they 
pose to us?
    When it comes to the Department of the Interior's 
reorganization, Senator Zinke and the Administration have 
failed to offer other sufficient explanations of why they want 
to make major changes.
    Moving NOAA fisheries from Commerce to the Department of 
the Interior ignores the agency's responsibility of managing 
multibillion dollar commercial fisheries. Creating arbitrary 
new regional offices could relocate or lead to layoffs of 
thousands of career professionals and more bureaucratic 
mismanagement of this issue. What we need on fisheries is 
science and funding. I think people on this Committee would 
agree. If you have fisheries, every time we have had to make 
tough decisions about fisheries, it is good science that has 
guided us on that information.
    So I hope that this particular proposal will not move 
forward and people will understand that what we need is stock 
assessment, good management, and the great things that we've 
done in the Northwest Pacific Council on fisheries management. 
The Park Service has already realigned its regions to be more 
efficient. How will doubling the number of regions result in 
additional savings? I have a question about that.
    We also have no understanding how Interior's proposal could 
impact tribal nations. It seems to me the Secretary should have 
completed tribal consultation before rather than after putting 
this plan together.
    Given all the Department's other actions to give away 
public lands and to not implement important rules to protect 
the taxpayers, I have great concerns about these reorganization 
strategies.
    So I look forward, Madam Chair, to asking questions this 
morning.
    I know we do have a vote in Finance that I am going to have 
to excuse myself for at some point, but just mark me down as 
very concerned about the proposals on the table today.
    Thank you.
    The Chairman. Thank you, Senator Cantwell.
    Let us go to our witnesses from the agencies.
    Again, welcome to Mr. Bernard McNamee with the Department 
of Energy. We will ask for your comments, if you can try to 
keep them within the five-minute limit. Your full statements 
will be included as part of the record. Once you are finished, 
Mr. McNamee, we will turn to Ms. Combs for her comments.
    So again, welcome.

STATEMENT OF BERNARD L. McNAMEE II, EXECUTIVE DIRECTOR, OFFICE 
              OF POLICY, U.S. DEPARTMENT OF ENERGY

    Mr. McNamee. Thank you, Chairman Murkowski and Ranking 
Member Cantwell and all the members of the Committee. It's an 
honor to be here today before you on behalf of the 
Administration and the Department of Energy to discuss the 
Administration's reorganization and modernization efforts and 
its vision for the Department.
    The Department is grateful for the support that this 
Committee has provided to DOE over the past year and a half. 
Most recently, and in particular, I want to thank Chairman 
Murkowski and Ranking Member Cantwell for your support and help 
in addressing the challenges related to Section 3111 of the 
NDAA. It's very much appreciated.
    In mid-December 2017, the Secretary of Energy announced his 
intention to realign and modernize the Department. The goal was 
to realign the program offices under efficient reporting 
frameworks that would advance the Administration's policy 
priorities, address the nation's present and future energy 
challenges, and refocus the Department on its core missions.
    Those core missions include promoting America's energy 
security, spurring science and energy innovation, reducing 
regulatory burdens, restoring the nuclear enterprise, enhancing 
national security to the military application of nuclear 
science, and addressing the obligation of legacy management and 
nuclear waste.
    The December 2017 modernization and realignment included 
creating separate offices for the Under Secretary of Energy and 
for the Under Secretary for Science and then realigning the 
offices under that to make sure that the missions were 
structured in accordance with the leadership. And then we also 
stood up the Office of Cybersecurity, Energy Security, and 
Emergency Response, also referred to as CESER.
    Of course, some of the offices are still awaiting Senate 
confirmation of their leadership, such as the Director of the 
Office of Science, the Assistant Secretary for CESER, Assistant 
Secretary for Energy Efficiency and Renewable Energy, and the 
Inspector General, but we are grateful to this Committee for 
exercising its constitutional role in this process.
    Now last month, as the Chairman mentioned, the 
Administration released a government reform proposal that 
included the Department of Energy. The reorganization efforts 
outlined within that proposal would help the Department achieve 
its goals in advancing the Administration's energy policy 
priorities, as well as enhance efficiency at DOE in focusing on 
its core missions.
    The Administration's proposal includes several important 
components, some of which have been mentioned already. First, 
divesting the federal transmission assets, which include those 
owned by the Power Marketing Administrations within DOE; 
second, consolidating DOE's Applied Energy Offices in Fossil 
Energy, Nuclear Energy, and EERE into a new Office of 
Innovation; next, eliminating ARPA-E, while integrating some 
elements into the Office of Energy Innovation; and finally, 
establishing the Office of Energy Resources and Economic 
Strategy.
    The Administration's plan includes other DOE-specific 
proposals. These include streamlining Environmental Management 
headquarters organizations, consolidating the various 
international affairs staffs into the existing Office of 
International Affairs, merging Human Resource service centers, 
and restructuring the Office of Science to improve efficiency 
and reduce costs.
    I would also like to give some perspective on this.
    First, it should be noted that a vast majority of the 
nation's energy infrastructure and electricity infrastructure 
is owned and operated by the private sector and the 
Administration views that the ownership of the transmission 
assets is best carried out by the private sector as well. 
Eliminating or reducing the Federal Government's role in owning 
and operating the transmission assets and increasing private 
sector's role would, in the Administration's view, encourage a 
more efficient allocation of economic resources and mitigate 
unnecessary risk to taxpayers. Of course, the divestiture 
requires action by Congress, and the Secretary has already 
acknowledged in his FY2019 that we will follow the direction of 
Congress on this issue.
    As to the elimination of ARPA-E, this proposal was made in 
the President's Fiscal Year '18 and '19 budget proposals and 
likewise, Congress has continued to fund the program. As with 
all programs, DOE will also follow the direction of Congress on 
these issues.
    In terms of the creation of the Office of Energy Innovation 
through the consolidation of applied energy offices, we hope to 
streamline R&D efforts across the Department so as to allow us 
to better leverage the Department's resources and funding and 
that would enable us to create and adapt more quickly the 
changing energy landscape.
    In conclusion, Chairman Murkowski and all the members of 
the Committee, I want to thank you once again for inviting me 
to be here today and to share the Administration's view of the 
Department. The Department appreciates the Committee's interest 
in its realignment and priorities, and we look forward to 
working with you on these matters and discussing them and 
looking at the opportunities so that we can promote energy 
dominance for the benefit of the American people.
    So thank you once again, and I look forward to your 
questions.
    [The prepared statement of Mr. McNamee follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you.
    Ms. Combs, welcome.

STATEMENT OF SUSAN COMBS, SENIOR ADVISOR TO THE SECRETARY, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Ms. Combs. Chairman Murkowski, Ranking Member Cantwell and 
members of the Committee, thank you for holding this hearing on 
the Administration's efforts to streamline and modernize 
operations at the Department of the Interior.
    I'm Susan Combs, Senior Advisor to Secretary Zinke.
    The Secretary has asked me to assist him with these 
efforts. As Controller over the State of Texas, I learned 
valuable lessons in how to increase the efficient operation of 
programs and to analyze, understand and consider how to achieve 
such improvements in an efficient, open and transparent manner. 
I'm honored to assist Secretary Zinke.
    Today's Federal Government operates with outdated and 
inflexible infrastructure and stove-piped processes. It often 
cannot provide the level of service and flexibility that the 
American people expect and they are rightly frustrated with 
this lack of efficiency, effectiveness and responsiveness.
    To address these inadequacies, in March 2017 the 
Administration launched its government-wide effort to reform 
and reorganize the Executive Branch. OMB was directed to 
propose a plan informed by agencies, the public and 
stakeholders for a path forward to better organize Executive 
Branch functions. During this review Department leadership 
gathered information from career employees, members of 
Congress, governors, tribes and stakeholders and worked with 
OMB to refine ideas and assess recommendations. This 
government-wide effort culminated in the reform plan and 
reorganization recommendations released in June which outlines 
the Administration's analysis and recommendations for 
structural realignment of the Executive Branch.
    Relevant to the Department, it contains several 
recommendations to merge responsibilities of other agencies and 
the Department, including returning the National Marine Fishery 
Service in the Department of Commerce into the U.S. Fish and 
Wildlife Service.
    Moving certain functions of the Corps of Engineers to the 
Department and integrating portions of the CERCLA-related 
cleanup program at the Department into EPA's Superfund program.
    These proposals align with Secretary Zinke's vision to take 
a more integrated approach to natural resource management, 
reduce administrative redundancy and jurisdictional and 
organizational barriers and facilitate joint problem solving 
that is important and necessary to bring the Department into 
the 21st century.
    Dovetailing with this government-wide review and plan, 
Secretary Zinke also laid out his vision for a reorganized and 
modernized department capable of providing conservation 
stewardship and service for the next 100 years.
    The Department's current organization includes ten bureaus 
with wide ranging missions and each with its own distinct 
regional structure. The result totals 61 regions across the 
Department creating confusion among stakeholders, decreasing 
consistency and slowing coordination efforts.
    The Secretary's vision is to establish science-based, 
unified regional boundaries where priority decision-making is 
made at the local level with informed centralized coordination. 
These boundaries were developed by looking at watersheds, 
wildlife corridors and ecosystems and taking into account the 
need for workable, regional boundary lines. A modernized 
approach based on this vision is important for an agency 
focused on resource, land, and water management issues. 
Development of these boundaries and maps has been an 
intentional and iterative process. We've shared proposed maps 
with the public and have sought feedback from the public 
stakeholders, members of Congress, state and local governments, 
tribes and our employees.
    We are carrying out a pilot project in the State of Alaska. 
An additional pilot is proposed for the region that includes 
the Upper Colorado Basin, Wyoming, Utah, Colorado and New 
Mexico. These pilots will focus on the use of shared services 
and inter-bureau coordination and will help ensure that the 
eventual nationwide implementation of these regions will have 
fully considered the complexity of the Department's operations 
in a way that is sensitive to regional differences.
    The Department is also sensitive of the need to consult 
with Indian Country on this effort, and we are engaged in such 
a process with sessions scheduled at various locations 
throughout the summer.
    Our goal is to make the government more responsive and 
accountable through these thoughtful and ambitious proposals 
and to bring government organization into the 21st century.
    Close coordination and transparency are important as we 
move forward. We will continue to gather information and seek 
input from members of Congress, the public, states, local 
governments, tribes and our stakeholders as we proceed. Our 
hope is that the Administration's plan serves as a foundation 
for constructive dialogue.
    Thank you, and I'm happy to answer any questions you may 
have.
    [The prepared statement of Ms. Combs follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Ms. Combs.
    I think that hearings like this are the way for a process 
to have some constructive dialogue.
    I know I have been visited by both Secretary Perry and 
Secretary Zinke as they have walked through some of this, and I 
am certain that many of my colleagues have as well. But when we 
are talking about changes as are proposed, I think it is 
important that there be good, fulsome discussion and an 
opportunity to put some things out on the record.
    Mr. McNamee, you have indicated that specifically when it 
comes to, for instance, ARPA-E, that we certainly intend to 
follow the authority and the appropriating laws of Congress on 
that. I guess I just want to send a very clear message that as 
the Chairman of not only the authorizing side but also the 
appropriating side, I want you to hear a very clear message 
from me that I think ARPA-E is important.
    It is not only important to this country, but I think it is 
important to the world as we look to how our technologies and 
the advancements that we are able to make through R&D are able 
to really make a difference at a host of different levels. So I 
certainly hope you carry that message back.
    I want to bring up the issue that you raised very briefly 
in your initial comments and this is in reference to Section 
3111 of the Senate-passed NDAA bill which would strip the 
Secretary of his authority over the National Nuclear Security 
Administration (NNSA).
    As you know, Senator Cantwell and I filed an amendment 
along with Senator Cruz to strike this out. There was a 
statement of administration policy that came out denouncing 
that. So I appreciate your comment here this morning. Can you 
just share, very briefly, what it would mean for the Department 
if that section were to be adopted if we are not successful in 
getting that stricken?
    Mr. McNamee. Yes, and thank you for the question.
    Once again, I want to reiterate at how appreciative we are 
to both of you and Ranking Member Cantwell for taking 
leadership on this.
    As you know, the Section 3111 would strip the ability of 
the Secretary of Energy, who has the ultimate responsibility 
for helping manage the nuclear enterprise, the nuclear weapon 
enterprise of this country, from actually having the control 
over certain aspects of its management. And that is something 
that he would still continue to have the obligation, the 
responsibility for it, but not the controls for it.
    I think that there's general agreement that in our 
structure of government ensuring that something as important as 
our nuclear capabilities that somebody at a Cabinet level 
should be accountable to the American people, to the President 
and to you and the members of Congress in making decisions 
about how to manage that enterprise.
    So without elaborating too much farther, I think that it is 
important for our structure of government for that sort of 
accountability to remain and that's why we believe that the 
Section 3111 should be removed.
    The Chairman. I appreciate that, and we will keep working 
with you on it.
    Ms. Combs, you had mentioned the listening sessions, the 
consultation with tribes as this process moves forward, and I 
know that you have listening sessions coming up in Alaska and I 
know that many are looking forward to being part of that.
    I have been visited in the past couple weeks from 
representatives from many tribes that have expressed concern 
because they just do not know what this may or may not mean for 
them. In the conversation that we have had with the Secretary, 
he has made it clear that this will be determined by the tribes 
as to how they want to participate. When I mentioned that to 
those who come to visit me, they say, well, what exactly does 
that mean?
    I know that there is much to be flushed out with this and 
with the consultation. We will perhaps learn a little bit more, 
but can you speak to what exactly is going on with the level of 
consultation with the tribes and perhaps define a little bit 
more what implementation this opting in may look like?
    Ms. Combs. Yes, thank you, Chairman Murkowski.
    The Secretary is very mindful of the sovereignty of the 
tribes and very mindful that this is a government-to-government 
relationship. And so, the initial phase of consultation is 
underway.
    And there have been four already held, three more scheduled 
and three additional ones will be scheduled which will mean 
that there will have been in every region that the tribes are 
in there will be a consultation.
    The Chairman. Which is very important.
    I have heard that, that some are saying we have not seen it 
in our region yet, so ensuring that that is in place is 
important.
    Ms. Combs. And those will all be completed by the end of 
August. That is basically stage one of the consultation 
process. After the input from the consultation is received 
there will be an analysis of whether the tribes, the consensus 
is achieved to opt in or whether they would like not to 
participate. Then a second round of consultations.
    The Chairman. Will a consensus be required of all tribes?
    Ms. Combs. No, a consensus, a consensus is more or less.
    And so, what I have been told is that then if the tribes 
decide too they would like to opt in, there will be a second 
round of consultation with BIA.
    What does that mean? What exactly would it mean? How would 
you like to work with the other bureaus? If the decision is the 
reverse that they would like not to participate, then BIA will 
hold additional consultations to decide how best BIA can 
represent the tribes with their other bureaus in the process as 
we go forward.
    The Chairman. My time is expired, but we will have another 
round here.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    Mr. McNamee, I do appreciate you being here. I think you 
have been given a very tough task this morning.
    In part of your comments you said the Administration wants 
market-based solutions on electricity. Do you consider the 
President's constant insistence that FERC adopt and mandate 
coal as the only reliable source of electricity as a market-
based solution?
    Mr. McNamee. The issue of establishing market-based 
solutions for the entire electric sector is very important in 
making sure that it functions.
    The market has been something that has helped us grow as a 
nation and helped our electricity system work.
    In terms of the markets that have been addressed by the 
President in his concern and also the Secretary's concern is 
that a lot of the organized markets that have distortions in 
them that aren't representative of an actual free serving 
market. And so, the thought is, in that sense, is that you need 
to make--remove some of those distortions and then get some 
more parity.
    But I think that also goes into something that you also 
mentioned as a great concern is about the cybersecurity issue. 
I know that it's very important to you and as it is important 
to the Secretary and to the President to address the 
cybersecurity threats to the grid.
    Senator Cantwell. It is important to the nation. It is 
important to the nation.
    Mr. McNamee. Yes, ma'am. That's correct. You're absolutely 
correct. It's important to the nation and it's something that 
we need to address.
    Senator Cantwell. Okay. So, his proposal, the President, I 
do not get it.
    The President is illogical as it relates to electricity. He 
is just trying to make it more expensive. You cannot mandate 
coal and say that you are for market-based solutions. You just 
can't. We have thwarted that, at least at FERC, but now he is 
trying to use the National Defense Act as a way to say you have 
to have coal on the grid. There is nothing market-based about 
that.
    Natural gas has pushed coal off of many things because we 
want consumers to have cheaper electricity. The notion about 
the Pacific Northwest is a decision we made a long time ago and 
most administrations come to their senses and adhere to the 
fact that we made a decision to have cost-based power, and I 
would say the private sector even supports the cost-based power 
because it is a mix of what helps them continue to deliver 
great economies and the taxpayers paying that back for that 
investment. The notion that the President just wants to make 
electricity more expensive for many, many, many parts of 
America is just crazy. It doesn't need to be that way.
    To come here with a reorganization plan that is about 
efficiency but the bottom line is raising electricity rates 30 
to 40 percent on big swaths of the economy is just, like you 
said, it is a bad, bad, bad idea and something we do not need. 
One of the best things that DOE could do is realize this and 
tell the President. So, if you would take this message back.
    The future is coming whether he wants it to or not. The 
question is whether our Department of Energy is going to help 
in that transformation and help drive down costs to consumers 
and businesses.
    We think the investments in ARPA-E and smart grid 
technology and things that get whatever the existing source of 
power is, more efficient cost of electricity into the system is 
what is going to make the United States more competitive in a 
global economy.
    So, as I said, I find these very, very frustrating. I get 
that you are just the guy here to deliver this and you 
basically say that the Secretary believes that whatever 
Congress decides will actually rule, basically come about as it 
relates to the electricity rules, but it is very, very 
disturbing that the Secretary of Energy would go as far as sign 
off on these reorganization ideas when they are the antithesis 
of where we need to go with cybersecurity and electricity.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Cantwell.
    Senator Smith is leaving.
    [Laughter.]
    Just giving you an opportunity.
    [Laughter.]
    You can go quickly.
    Senator Smith. I thought that one of my ranking members was 
going to pull rank but apparently not.
    But thank you very much, Madam Chair.
    The Chairman. Early bird rules.
    Senator Smith. Yes, that is right.
    Thank you very much, Madam Chair and Ranking Member 
Cantwell. I appreciate this hearing very much.
    I have a couple of questions that I would like to address 
to Mr. McNamee.
    I want to start out by going back to this issue that 
Ranking Member Cantwell raised around the Western Area Power 
Administration, WAPA, which provides power to 48 
municipalities, 15 co-ops and three Native American tribes in 
Minnesota, kind of, along our Western area.
    As Senator Cantwell has pointed out, this is a really 
important supply of cheap, reliable energy and I want to go on 
record as saying that I really oppose plans by the Trump 
Administration to privatize these WAPA assets, but I just don't 
understand why we think that this one time, you know, cash flow 
into the Treasury is, you know, would justify this kind of a 
step. And as I understand it, though I am only here for six 
months, that this is a step that Congress has already rejected 
a couple of times. So can you just help me understand why the 
Administration thinks that this is a good idea?
    Mr. McNamee. Yes, as you know, as you know this has, and as 
you mention, previous administrations have proposed the selling 
of the PMA assets and this Administration has also proposed it 
both for a cost saving aspect but also as is our discussion 
about the markets a few moments ago, that markets may be the 
best way to most efficiently use those assets and for those 
assets to develop and to be used for the benefit of its 
ultimate customers.
    And so, there is a thought that by privatizing these 
assets, they were created at a time it was needed that when 
power could not be provided to people that was needed, that 
they've matured and now's the time to let them function on 
their own and be able to compete on their own and to provide 
innovative solutions as they want to see fit.
    Senator Smith. Yes, well, I just want to reiterate that I 
just do not agree with that. I think that this is a strategy 
that has been able to, you know, I am for cheap. I am for 
reliable, affordable, and clean energy.
    I think that this is one of the strategies that we have 
that is able to provide that kind of energy, especially to 
Minnesota co-ops in the Western part of the state. So if you 
could carry that message back, I would appreciate it.
    I also wanted to touch on an issue that Chair Murkowski 
raised about ARPA-E. ARPA-E funds cutting-edge research in 
Minnesota, especially around projects that we have going right 
now around bio fuels and optimizing the efficiency of delivery 
vehicles and also designing the grid of the future.
    ARPA-E is a way of funding high risk, high reward research 
and not only research, but research and development. Those two 
things have to go hand-in-hand, it seems to me. And the Trump 
Administration has sought to eliminate ARPA-E and as I 
understand it, this Committee and the Senate has rejected 
previous proposals to do this.
    I strongly support ARPA-E and I think as Ranking Member 
Cantwell said, we need to be, you know, the future is going to 
come and we need to build our competitive advantage, not 
detract from it.
    So could you just help me understand why does the 
Administration want to back away? I mean, is there evidence 
from your perspective that this is not working or it is not 
accomplishing what we think it ought to be accomplishing?
    Mr. McNamee. As described in the reorganization that we're 
proposing currently to collapse that various R&D programs from 
the various fossil energy and nuclear energy and EERE and 
taking some aspects of ARPA-E and bringing them all together, 
we think we can get more efficiency and have more 
transformative research done in order to solve the energy 
issues facing the American people.
    So ARPA-E standalone, the concern has been is that it is 
taking taxpayer money and putting it at extreme risk for maybe 
a high reward, but also a high risk of not working out.
    And so, the thought is, is that you eliminate ARPA-E and 
let the private sector take those sort of risks and instead 
collapse through this continued reorganization and have all the 
R&D efforts working together to try to not solve individual 
silo issues, but instead try and figure out what are the energy 
issues that need to be solved for the American people. And 
let's not work in silos but what's the best solution. So, 
that's, kind of, the nuance that comes with this reorganization 
that touches on ARPA-E.
    Senator Smith. Well, you know, I am always interested and 
willing to look at ways that we can make our strategies work 
more efficiently, work better together, but I have to say, I 
just cannot agree with the strategy of moving away from the 
kind of research and development that we can do together in 
order to put this country on the, you know, put us and keep us 
on the cutting edge of what the energy future looks like. So if 
you can carry that message back as well, I would appreciate it.
    Thank you.
    The Chairman. Thank you, Senator Smith.
    Senator King.
    Senator King. For both witnesses, I am a visual learner. I 
would appreciate it for the record if you could supply before 
and after organizational charts so I can see the boxes. What is 
in what box now? What will be in the new boxes? What will be 
left out? I think that would be very helpful in analyzing these 
proposals. It is hard to visualize them from simply the 
narrative.
    I think my second question is a broader one. I guess I will 
go to you, Mr. McNamee. What problem is being addressed here? A 
Supreme Court Justice used to start their oral argument by 
saying why are you here? And the question is, this strikes me 
as a solution in search of a problem. Another way to put this 
is, I presume you are talking about efficiencies. Have you put 
any numbers on it? Are we talking about billions of dollars of 
savings in efficiencies or are we just moving things around? 
Why are we doing this?
    Mr. McNamee. I think in relation to the Department of 
Energy, this second piece of the reorganization is actually 
much more minor than the initial one which we all discussed and 
that you all were involved in, in December 2017 which was the 
real restructuring. So that was the first step that really 
tried to create more rational lines in how we can implement, 
kind of, diverse policies and admissions for the Department of 
Energy.
    This is a second piece of that. I don't have any numbers to 
provide you about how that would create efficiencies but it is 
trying to take the first step and getting the discussion with 
you all here on the Committee to say, maybe it makes sense 
instead of having R&D done by silo and by fuel type, basically, 
to say, you know what, if there's a limited amount of dollars 
overall, is there a way that we should be thinking about 
solving energy problems?
    Senator King. For the record I wish you would supply an 
analysis of what the savings will be from these various changes 
so that we can decide if they make sense and if they're going 
to result in some positive result.
    By the way, I really take issue with your statement about 
ARPA-E and energy research. The whole idea is that the private 
sector will not do this kind of deep research, basic research, 
that will provide the insights and the breakthroughs that will 
make so much difference to us.
    I would point out that the biggest thing that has happened 
in American energy, probably in the last 25 years, is the 
development of hydro fracking which was developed using 
Department of Energy research funds.
    Take that away and we are in a total different energy 
situation in this country right now. The same thing goes with 
the development of solar and wind technologies which have 
fallen dramatically in price. I believe research, basic 
research, is a fundamental purpose of the Department of Energy, 
not a peripheral purpose, not an add-on, not of something to be 
reorganized and minimized. So I really disagree with you on 
that.
    I do not want to be entirely negative, I think the creation 
of the Cyber Office is a positive one. I think that is an 
important area, a critically important area. Putting it all in 
one place, I think, makes sense.
    How it is executed, however, will make all the difference. 
Just moving the boxes around won't change if it is not given 
the proper authority, the proper funding, and the proper focus. 
But that is one of the most important things that you can do.
    And I think that change is a positive one but shuffling the 
research around, moving them around, abolishing ARPA-E, I think 
you are going to have a hard time with this Committee on that.
    Final question to Interior. I think I would ask you the 
same question. I would like to see the changes. I have seen the 
map of the changes of the regions, but the other changes--I am 
interested in the idea of bringing NMFS into U.S. Fish and 
Wildlife. I do not really have a reaction to that, but I would 
like some greater detail. That is a significant change.
    I would like some additional narrative for the record about 
why that change is necessary, what it would do in terms of 
would we leave expertise behind in the Department of Commerce 
and how would that actually take place? What does the 
Department of Commerce think about it? What do the people that 
have spent their lives working in this area think about this 
proposed change?
    Again, I express no, perhaps, skepticism. That is okay. Not 
opposition, but I do want to understand it better and what the 
implications are because that is a very significant change.
    I also would like the Department of Defense's view on 
picking up the Corps of Engineers and dropping it in various 
parts of the United States Government. I think Secretary 
Mattis' comments on that would be informative.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator King. I think it is 
important that we do get that level of detail for the Committee 
and for the record.
    I share the same concerns, I think, about NMFS. Obviously, 
pretty important in a state like ours where our fisheries are 
so important.
    Senator King. His, not so much.
    The Chairman. He needs our fish.
    Senator King. Yes.
    [Laughter.]
    The Chairman. And we want to make sure that we are doing 
good stock----
    Senator Heinrich. I have not had any good Alaska halibut in 
a while. Well, the season is coming on. We will have to arrange 
something.
    The Chairman. But I appreciate that request.
    Let's go to Senator Gardner.
    Senator Gardner. Thank you, Madam Chair.
    Thank you to the witnesses for being here today.
    While I have you both, I just wanted to ask you about a 
concern that I have about the possibility that the Department 
of Energy, through the Western Area Power Administration, may 
not fund its portion of the Upper Colorado and San Juan Fish 
Recovery Program and Glen Canyon Dam Adaptive Management 
Program. These programs keep about 2,500 water and hydro 
facilities and the major economies that rely on them in 
compliance with the Endangered Species Act. The fact that WAPA 
may put this at risk by deciding not to fund these programs is 
a huge mistake, a huge mistake.
    I have a bill to authorize, reauthorize, the Upper Colorado 
program that the Administration has generally supported, but I 
am certainly happy to work with you moving forward if there is 
another way to get reliable funding for these programs. In the 
meantime, it is absolutely critical that both agencies use the 
authorities you do have to fund them in 2019 as we have those 
discussions. Again, it would be a huge, huge mistake and 
detrimental to these communities to lose that funding. I can 
repeat that if I was not clear enough there, alright? Thank 
you.
    Mr. McNamee, just a quick question for you. I have been 
reading through some of the Secretary's modernization 
realignment actions. Pieces of the recent Administration 
proposal contain measures that require Congressional authority, 
including privatization of PMAs, that would take Congressional 
authority to do that.
    WAPA plays a key role in administering federal hydropower 
resources to stakeholders in the West, including rural co-ops, 
public power entities and federal agencies providing for our 
national defense.
    Dr. Walker at DOE, Office of Electricity, testified 
recently before this Committee about WAPA's key role in 
identifying defense-critical energy infrastructure and its 
territory in its efforts to safeguard those assets. Are you 
concerned that privatizing WAPA would jeopardize working 
relationships like this?
    Mr. McNamee. I don't believe that there's a concern about 
the working relationships with the PMAs because just like the 
Department and the Federal Government, itself, DHS works with 
all the electric utilities, the transmission providers, the 
generators. It's something that happens both in the private 
sector and in the PMA category.
    So, I don't think there's a concern about the 
communications or that everybody needs to take the issues very 
seriously, particularly cybersecurity.
    Senator Gardner. Well perhaps we can have further 
conversations about that. I would like to understand a little 
bit further how that could possibly be the case.
    The Secretary's reorganization already co-located the 
Applied Energy offices under the Under Secretary of Energy. 
Funding is currently appropriated to each of those four 
offices. Currently, the appropriations to the energy offices 
are prohibited from being repurposed or reprogrammed between 
fossil, nuclear and EERE. Are there other benefits this could 
have or is this just another way to, perhaps, cut funding for 
EERE?
    Mr. McNamee. The goal here is not to cut funding. From my 
understanding the goal is to really make sure that there's 
cross communication and that the focus is not just on a 
particular energy source, but rather to focus on the energy 
problem itself and determining what's the best source.
    And then there's also crosscutting aspects. You know, if 
you think about water, water is important and issues related to 
EERE currently related to hydropower. It's important to nuclear 
energy. It's important to fossil energy, whether it's fracking 
or boilers.
    And so, trying to make sure as innovation ideas are 
developed, that research dollars are done. You know, maybe 
there's a great idea that EERE is having that ought to be 
looked at in the fossil area and to make sure that those 
dollars in that sense are maximized most. But my understanding 
is that this is not a cost cutting effort, per se, in terms of 
trying to reduce the funding in each of those silos.
    Senator Gardner. Thank you, Mr. McNamee.
    Ms. Combs, thank you very much.
    Your testimony talks about abandoned mines, the cleanup of 
4,000 AML sites that may require CERCLA level cleanup. There's 
about 75,000 AML sites that do not rise to the level of needing 
CERCLA level cleanup but could possibly still use some cleanup 
help, as you know.
    What is the Department's view of a good Samaritan bill/
program that would allow federal agencies to partner with non-
profits, industry, others who want to volunteer their time, 
their own resources, to clean up some of these sites and help 
better the environment? And would this type of a program, the 
good Samaritan legislation, help further resources at the 
Department when it comes to environmental cleanup?
    Ms. Combs. Yes, Senator, thank you for your question.
    We very much support public-private partnerships. It 
certainly enables us to stretch our workforce farther and we 
support those and that would be ideal area for that to work.
    Senator Gardner. Thank you.
    In the coming weeks I plan to introduce a bill that would 
create a good Samaritan pilot project to show that this concept 
can work and will work at the federal level, as well as it 
already works at the state level in many places across the 
country. I look forward to working with the Department of the 
Interior on it.
    Finally, I would like to know what is the Department's 
timeline in its evaluation of potential relocation of 
destinations for the Bureau of Land Management Headquarters?
    Ms. Combs. Thank you, Senator, for that question.
    What we're doing right now is trying to get the regions set 
and so that's why I have two maps here to talk about.
    The Secretary has made it clear that he does want to move 
BLM's headquarters West and no location has been picked, but 
that is something that we would expect to really take a look at 
the next six months or so, eight months; but we will do that 
very carefully, very thoughtfully because of the fact that you 
don't just pick a spot, you have to do the analysis, what's its 
flight back and forth, what's the cost of living, what's it 
like to live there because you want people to go where they're 
going to be happy.
    Senator Gardner. But the bottom line is the Secretary does 
intend to relocate and move out of Washington, DC, to the West 
the Bureau of Land Management.
    Ms. Combs. Absolutely.
    Senator Gardner. Thank you.
    The Chairman. Thank you, Senator Gardner.
    Senator Heinrich.
    Senator Heinrich. Mr. McNamee, welcome back.
    First, I think, I want to just say, I could not say it any 
better than the Chair. ARPA-E, first rule of government, when 
something works really well, don't mess with it. This is a 
great program. You have heard tons of support from this panel 
on it. It works. Let's not break it.
    Last time you were here I asked about Secretary Perry's 
ill-advised FERC NOPR, and today I would like to ask you about 
the use of Section 202(c) of the Federal Power Act (FPA) to 
subsidize uneconomic power sources.
    Last month I asked all five of the FERC commissioners about 
this. I asked whether there was an actual national security 
emergency that would trigger emergency authority to subsidize 
uneconomic power generation, and none of them were willing to 
answer yes.
    I want to include in the record today, and I would ask 
unanimous consent to include a list I have here of, quite a 
broad list, of trade associations and business groups: American 
Petroleum Institute, the Natural Gas Supply Association, the 
Electric Power Supply Association, the Electricity Consumers 
Resources Council, the American Wind Energy Association. It 
just goes on and on. Groups that oppose any effort by the 
Administration to use the Federal Power Act or the Defense 
Production Act to subsidize uneconomic sources of energy.
    [List of Trade Associations and Business groups follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Heinrich. So I went to your website, to the DOE's 
website, this morning to really get at the base of this and I 
pulled up your page on Energy.gov with regard to using Section 
202, the FPA. The preface of using that authority is in the 
very first line. It says under FPA, Section 202, ``During the 
continuance of a war.'' What war are we using to justify this 
unprecedented action to distort the markets?
    Mr. McNamee. Senator, if you look at the further language 
in 202(c), war is one condition and then that's another 
condition if there's other emergencies and lists other causes. 
And 202(c) has been used in a variety of contexts. I know that 
currently there's a 202(c) for a power generation plant in 
Yorktown, Virginia, that's being used to support power.
    It's been used, it was used during the California energy 
crisis----
    Senator Heinrich. Which we all remember that California 
energy crisis because people's lights weren't on. What is the 
emergency today?
    Mr. McNamee. Well, in terms of an emergency----
    Senator Heinrich. What is the specific legal authority that 
ties to that emergency?
    Mr. McNamee. Well, no emergency and no 202(c) has been 
issued though the Secretary is always aware and always looking 
at the issues affecting the grid. So, you know that the 
President has directed the Secretary, especially considering 
the national security implications of various attacks on the 
grid to look at various options and the Secretary looks at 
options, but no 202(c) has been issued.
    Senator Heinrich. Given the incredible impact that this 
would have on electricity consumers, I would just urge 
incredible caution for above-market pricing in the bulk power 
system.
    Ms. Combs, I want to ask you a couple questions. I do not 
have a lot of time.
    I first want to thank the Secretary for not breaking New 
Mexico into three different regions. I think that would have 
been difficult to manage at best. I appreciate listening to the 
Western Governors' Association that also expressed some of the 
same concerns that I expressed directly to the Secretary.
    I guess my question for you is about one of the tribes and 
how this is going to work whether they are in and whether they 
are out, if they are able to opt out. How does that work where 
you may have the Northern Pueblos Agency, for example, that 
includes a number of tribes in Northern New Mexico where you 
may have one sovereign government opt into one program and then 
another tribe opt out and then the agency that was created to 
serve them has a mixed constituency? I am just not quite 
understanding how the rubber hits the road at the tribal level.
    Ms. Combs. Thank you, Senator.
    As I stated earlier, the Bureau of Indian Affairs has 
completed four of the consultation meetings. Three more are on 
the schedule and three more will be scheduled for the month of 
August. And the point is to visit with the tribes in those 
individual consultations and talk to them and see----
    Senator Heinrich. You came out to Albuquerque, right?
    Ms. Combs. Yes, I did.
    Senator Heinrich. Yes, that was not an individual 
consultation, right?
    Ms. Combs. No, that wasn't.
    Senator Heinrich. That was a come to us and tell us your 
thoughts.
    Have you gone to the tribes to sit down directly with 
tribal governments and ask them their thoughts?
    Ms. Combs. John Tahsuda, who is a Principle Deputy, is 
doing all of those and I believe that the new Assistant 
Secretary, Tara Sweeney, will be on board in about 10 days. BIA 
is conducting those consultations. Mr. Tahsuda told me this 
morning that they are, of course, preparing a second round of 
consultations to walk through the specifics, depending on which 
way the consensus of the tribes is reached. If they want to opt 
in, how. And so, they will be deciding what it is they wish to 
do in further consultations. If they don't want to participate 
they will have consultations about how they would like BIA to 
go ahead and manage with their fellow bureaus. We will be 
working with them and talking with them and finding out how we 
can best craft the solution that they want.
    Senator Heinrich. I apologize for being over my time.
    The Chairman. Thank you.
    Senator Hirono.
    Senator Hirono. Thank you.
    Ms. Combs, in February 2013 the Government Accountability 
Office published a report on the ``Potential Benefits and 
Drawbacks of Merging the National Marine Fisheries Service into 
the Fish and Wildlife Service,'' something that the current 
Administration is proposing to do. Importantly, this GAO report 
concluded that overall, officials and stakeholders who they 
consulted with--and I have a question as to who you all 
consulted with before you came up with these proposals--anyway, 
they said that the drawbacks of reorganizing the agencies 
outweigh the benefits. Can you discuss the circumstances that 
have changed since the 2013 report to justify this particular 
proposal?
    Ms. Combs. Thank you, Senator.
    I'm not aware of any particular circumstances that have 
changed, but I would point out that I believe that the 
fisheries was moved by President Nixon in 1970 and then the 
Marine Mammal Protection Act, I believe, was passed in 1972 and 
then the ESA in '73.
    What you have now from the Administration's perspective is 
you have the Marine Mammal Protection Act and the Endangered 
Species Act, both administered by separate agencies, the 
Department of the Interior and the Department of Commerce. I 
have not been involved in this work. I've been involved in 
other work on reorganization. I'm aware that this is underway 
and been proposed and we will work with everyone in Congress to 
see what it is you ultimately decide to do.
    Senator Hirono. So, in other words, you cannot provide me 
the real justification for what might have changed because we 
actually have an official report that said this particular 
reorganization has more drawbacks to it than the benefits. So, 
you know, one wonders. I wonder why this is happening.
    Mr. McNamee, when I look at this proposal from the 
President I see it is as part of, basically, a radical effort, 
a desired goal, to shrink the Federal Government and limit its 
ability to help people solve the problems that face us all. And 
when it comes to the Department of Energy, I do not see a lot 
of detail in this proposal.
    How will this reorganization help my constituents in 
Hawaii? Hawaii is in the middle of a transition to 100 percent 
renewable power by 2045. It is a very ambitious goal, in fact, 
the most ambitious goal of any state, as far as I know. And, 
you know, the people of Hawaii can show the rest of the country 
how to make that transition a reality, but it depends on 
demonstrating new technologies. This proposal will consolidate 
all applied energy programs into one office. Given the 66 
percent cuts to renewable energy programs in the President's 
budget, how will the new Applied Energy Office help speed the 
transition to renewable energy?
    Mr. McNamee. Senator, the proposal is to, by bringing the 
various offices together for research and development is in 
order to stop looking at energy problems as by the silos of the 
energy resource and to focus on how do we solve the actual 
energy problem. And so, if renewable energy is the best 
solution to the problem, it ought to be used. If a fossil fuel 
is the best solution, it ought to be used. If nuclear is the 
best solution, it ought to be used.
    And that is, you know, going with Senator King I may have 
misspoke, the point was, truly, that the office should be 
engaged in basic research and we need to continue to do 
research in other areas related to fuel.
    The issue with ARPA-E was whether or not we ought to be 
doing what ARPA-E focuses on which is that transition from the 
basic research or just beyond the basic research to try to get 
it to commercialization.
    But in terms of how we can help states like Hawaii achieve 
their goals, the goal of the Department of Energy on the energy 
side of it, is to find energy solutions. And right now, the 
belief is we're doing a good job of it, but we can do better. 
And perhaps one of the ways to do that is to stop looking at 
fuel resources in their silos and start focusing on the end 
solution.
    Senator Hirono. Well, I am all for non-silo thinking, but 
that is really, I believe, the goal of this Administration 
because they are making 66 percent cuts to renewable energy 
programs.
    If you look at renewable energy programs and the research 
and development that goes there versus this Administration's 
huge commitment to fossil fuel continuation, one wonders, you 
know? You can consolidate everything all you want, but if the 
basic orientation is support of fossil fuels and not renewable 
energy, I really wonder how a state like Hawaii that wants to 
get away from dependence on fossil fuels will be particularly 
helped, especially with the huge cuts.
    I am almost out of time, so I will submit other questions 
to the panel.
    Hawaii relies on the state energy program to support 
building code updates and technical assistance to help people 
and the businesses and local governments save money on their 
energy bills. Hawaii benefits from the Weatherization 
Assistance Program which helps low income people lower their 
energy bills by increasing the energy efficiency of their 
homes, and the President's budget would eliminate funding for 
both programs. Where do the state energy programs and the 
Weatherization Assistance Program fit in your proposal?
    Mr. McNamee. Senator, I don't have the answer to that 
question, but I'll get back to you with it.
    Senator Hirono. When would you get back to me?
    Mr. McNamee. I will get back when I finish here, and I'll 
try to get back to you as soon as I can find answers.
    Senator Hirono. In a timely manner, right?
    Mr. McNamee. Yes, yes, Senator.
    Senator Hirono. Which I would consider to be within a 
couple of weeks. You should be able to get this answer to me 
very quickly. Thank you very much.
    Mr. McNamee. Yes, Senator.
    Senator Hirono. Thank you, Madam Chair.
    The Chairman. Thank you, Senator Hirono.
    Ms. Combs, back to you.
    You had mentioned that Interior is looking to Alaska as, 
kind of, a testing ground, somewhat natural. We are, at least 
now, we are all one time zone. We used to be five, but now we 
are one.
    We have, as you know, a significant Department presence 
there and we have consolidated regional office locations. That 
is a good place to start.
    Can you share with me and with the Committee, kind of, 
where we are with what we are learning from Alaska as, kind of, 
the test case here or the pilot? How what you are learning in 
Alaska can then be translated outside to other regions? And 
then also, how the piece of the tribal consultation fits in 
with Alaska? As you know, we have half of the tribes in the 
country that are in Alaska. You are going to have the 
consultation process going on, but you are also working on 
Alaska as, kind of, your test case here. Can you speak to the 
integration of all of this?
    Ms. Combs. Yes, thank you, Senator.
    What is going on in Alaska is actually very, very 
interesting and this is what I would call a bottoms-up effort.
    The head of the Fish and Wildlife Service and the head of 
the BOEM are, together, the architects of what is going on in 
Alaska. And because they're doing it themselves, they're 
creating this themselves. They're looking at several issues. 
One is office location, one is aviation services such as flight 
following versus dispatch, and another one is HR staffing.
    They're looking at IT. We've already sent somebody up to 
Alaska. They spent a week there, a gentleman named Bruce Downs, 
and they had very successful conversation.
    What we're asking the folks to do in Alaska, which they're 
picking up and doing, is what you all decide what works for you 
for your region and then come and tell us what you think the 
cost benefit is and tell us what you think the efficiencies 
are.
    So, for example, Fish and Wildlife Service is proposing to 
relinquish some space which they say will save them between 
$900,000 and $1 million a year which is, you know, $9 to $10 
million over 10 years. And if they move BOEM and BSEE in, they 
will save approximately $160,000 per year which over 10 years 
is $1.6 million. All of these numbers have been hardened by the 
General Services Administration so we're going to people to 
say, does this work, is there a cost benefit? And then you add 
to that there is an additional benefit of co-locating. You walk 
down the hall, take an elevator, climb the stairs, go see 
somebody that you might not otherwise see.
    That's been something that was brought home to me in 
looking at ANILCA and what you all have done there is to have 
the state departments of Alaska working with all of the federal 
land partners. Well, that is, Forest Service, BLM, Fish, et 
cetera, and that has worked out very, very well. It works well 
to collaborate, and I can't say that often. It works very well 
to collaborate.
    Well, one other kind of collaborating is, obviously, co-
locating where it makes sense but you look at how much time is 
left on your lease. GSA told us that most of the leases there 
had about a four-month extension, which makes it relatively 
easy to decide, but you leave it to the folks in the region to 
decide what they want to do.
    So, from that, we take the fact that where I would like to 
go to, what I would call region seven, and I'd like to put up 
the maps, is region seven is an incredibly important area. It 
is where the West begins.
    [The information referred to follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Combs. It is New Mexico and Colorado and Wyoming and 
Utah. That is what we're finding out in Alaska is if the people 
at the table, the design table, the drafting table, for the 
plan get excited about it then that carries over and then they 
get the great feedback from all of the internal and external 
stakeholders. In that perspective they're talking to the BIA 
folks. BIA folks, in fact, have already approached them. They 
want them to take on some of their HR functions.
    That's really, kind of, a local menu design with the Alaska 
natives is what would you like to do? Well, we'd really like to 
pick one from, you know, option A on the menu, one from B. No, 
we don't like this one. We'll pick it. And so, that's what 
they're already doing. It's bubbling up from the bottom, and I 
think that's not only healthy, I think it's really smart.
    The Chairman. Well, I think it is also very foreign in the 
sense that more often than not we are basically told what will 
be coming to us or what will happen to us or what the structure 
will look like. Every now and again you get somebody who will 
say, oh, we will give you a little bit of flexibility here to 
design it yourself, but it is more on paper than actuality.
    I know that Alaskans are very interested in this. We like 
the idea of efficiencies, co-location can be a very good thing, 
but we also recognize that it takes more than just putting 
people in the same building. It is how are you working 
together, across agencies. And more often than not, that is 
where we have the impasse.
    But I guess a first step is getting people at least to be 
talking with one another. If ultimately what happens is that 
there is greater authority for some of the more local and 
parochial decisions to be made, rather than Washington, DC, or 
the region director who may be located somewhere else in the 
Pacific Northwest, then we really have that flexibility. I 
think that that is something that most of us are looking at 
with keen interest in understanding more. Thank you for 
outlining that.
    Senator Heinrich.
    Senator Heinrich. Thank you.
    Mr. McNamee, you said there is currently no 202(c) finding. 
Are you or is DOE working on a 202(c) finding?
    Mr. McNamee. As you may be aware, the President, I guess it 
was at the very beginning of June, directed the Secretary to 
look at options to address what he perceived as the crisis on 
the grid. There's an interagency activity that's looking at 
various options to address----
    Senator Heinrich. Including 202(c)?
    Mr. McNamee. I believe all the different authorities that 
the Secretary or the rest of the Federal Government are being 
looked at.
    Senator Heinrich. And what was the crisis that prompted 
this again?
    Mr. McNamee. Well, there's a combination of issues that the 
electric grid has been and continues to be under constant, 
particularly, cyberattacks. The Director of National 
Intelligence, the other just, I think, last Friday, made the 
comment that the lights are blinking red again. And I think 
there's been numerous reports in public arenas----
    Senator Heinrich. Yes.
    Mr. McNamee. ----about the different utilities.
    Senator Heinrich. As you may know, I also sit on the 
Intelligence Committee, and I am very aware of the threats to 
utilities. I think we need to take those very seriously. They 
tend to be exacerbated actually by the overreliance on 
centralized generation which is exactly what would be 
subsidized under 202(c). A more distributed grid is a more 
resilient grid and much harder to attack through cyber means 
because it requires attacking many, many, many points instead 
of a few points. So I hope the Administration would consider 
that in their deliberations.
    I would also urge that the Administration look closely at 
the legislative history of that legislation. It rests heavily 
on the idea of an emergency shortage and how to solve that. It 
is worth going back and looking at that plain language and 
making sure that this conforms to free market conditions as 
well. I know that is a radical idea from a Democrat, but let's 
use the free market. It is working pretty well.
    Ms. Combs, I wanted to ask you about the BLM. I know there 
has been back and forth about whether the BLM state offices are 
going to remain as they are currently configured or not, and I 
guess there was some back and forth between the Western 
Governors' Association and the Secretary as well as many of the 
rest of us. Can you just tell us, is the BLM, are the state 
offices exempted from this reorganization or are they included?
    Ms. Combs. The BLM state offices will remain exactly as 
they are.
    Senator Heinrich. Okay.
    And one last question on the tribal side of things. I 
mentioned the complexity of dealing with the Northern Pueblos 
and the Southern Pueblos. We also have the Navajo Nation which 
has its own region right now. They have a regional office in 
Gallup, New Mexico. What would happen to that office in that 
region?
    Ms. Combs. That would stay where it is.
    Senator Heinrich. Okay, so it would be an island with the 
state regions around it, right?
    Ms. Combs. Yes.
    Senator Heinrich. Thank you very much. I think that is a 
smart move, and I appreciate it.
    The Chairman. Thank you, Senator Heinrich.
    I thank you both for being here this morning, for walking 
us through some of the concerns that have been raised by 
members.
    I am sure you can anticipate other questions, other issues, 
that will be presented to you, so an opportunity to either get 
back within timeframes, as Senator Hirono has requested or 
others, would be appreciated.
    But also, know that the outreach that is made from the 
Departments to members individually is good. I think it is 
helpful and we know that there is more that is going on within 
the Administration, outside of just these two departments, but 
there is some intersect that has been raised. You know, where 
is Commerce on, for instance, the NMFS? Where is DOD on some of 
the core issues?
    So, allowing us to better understand how this whole thing 
knits together or perhaps how it unravels, I am not quite sure, 
but I think that would be helpful for all of us. The more that 
you can continue, not only the engagement with us as members 
but also with our constituents, these consultations are very 
much appreciated.
    I know that we gained a lot on the DOI side from the 
consultation with the governors. Good input was received there. 
I think that actually helped you in New Mexico. I appreciate 
the extent to which you are engaging and would just encourage 
that.
    Thank you for being with us this morning.
    The Committee is adjourned.
    [Whereupon, at 11:15 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

</pre></body></html>
